                                     March 21, 2000

                                     YVONNE D. MAGUIRE
                                     VICE PRESIDENT, EMPLOYEE RESOURCE
                                      MANAGEMENT

                                     CRAIG G. WADE
                                     VICE PRESIDENT, WESTERN AREA OPERATIONS

                                     SUBJECT:	 Allegation Concerning the Untimely
                                               Submission of Injury Claims, Albuquerque
                                               District (Report Number HC-MA-00-002)

                                     Based on a hotline allegation, we initiated a review to
                                     determine whether injury claims were submitted untimely in
                                     the Albuquerque District. This report presents the results of
                                     our review.

Results in Brief	                    The review confirmed that the Postal Service supervisors1 in
                                     the Albuquerque District were submitting injury claims late
                                     by an average of 21 days for the 246 injury claims we
                                     reviewed. Postal Service guidance states that supervisors
                                     should submit injury claims to the Postal Service’s injury
                                     compensation control offices within 24 hours of receipt from
                                     injured employees. We used a 5-day criterion, which the
                                     Albuquerque District believed was a reasonable submission
                                     timeframe. Late submissions occurred because senior
                                     management in the Albuquerque District did not enforce
                                     their internal policies and procedures requiring supervisors
                                     to timely file injury claims.

                                     In addition, senior management in the Albuquerque District
                                     had not established a mechanism to hold supervisors
                                     accountable for the late submission of injury claims.
                                     Furthermore, Postal Service policy did not exist to require
                                     supervisors, who are an integral part of the injury claim
                                     process, to receive injury compensation training. Late
1
    Supervisor is defined to include, acting supervisors (204-bs) and associate supervisory personnel.




                                                 Restricted Information
Allegation of the Untimely Submission                                                                     HC-MA-00-002
 of Injury Claims, Albuquerque District


                                   submissions of injury claims delayed injury compensation
                                   control office personnel’s efforts to manage injury claims to
                                   prevent or minimize lost workdays and to control medical
                                   costs. In addition, the untimely submission of injury claims
                                   by supervisors could represent actions subject to legal
                                   remedies to include criminal penalties.2

                                   To correct the deficiencies associated with untimely injury
                                   claims, we suggested that Postal Service managers develop
                                   policy detailing supervisory responsibilities for processing
                                   injury claims and establish sanctions for supervisors who fail
                                   to submit injury claims timely. In addition, injury
                                   compensation training should be required and conducted for
                                   all Postal Service supervisors, including the Albuquerque
                                   District. Management agreed with the five suggestions and
                                   has either taken or planned corrective actions, which are
                                   responsive to the suggestions. Management’s comments,
                                   in their entirety, are included in Appendix C.

Background 	                       The Code of Federal Regulations, Title 20, Part 10,
                                   April 1, 1999, establishes rules applicable to the filing,
                                   processing, and payment of claims for workers’
                                   compensation benefits under the Federal Employees’
                                   Compensation Act. Specifically, Section 10.110(b) states in
                                   part that the employer must complete and transmit the injury
                                   claim form to the Office of Workers’ Compensation
                                   Programs (OWCP) within 10 working days [14-calendar
                                   days] after receipt of the injury claim form from the
                                   employee.

                                   In order to meet the 14-calendar day filing criterion, both
                                   supervisors and injury compensation program personnel
                                   throughout the Postal Service must adhere to specific
                                   timeframes when filing injury claims and consider time for
                                   mail delivery of injury claims to the OWCP. The processing
                                   of an injury claim begins with the submission of the injury
                                   claim from the employee to the supervisor, therefore, it is
                                   essential that supervisors timely submit injury claims to their
                                   district’s injury compensation control office. Furthermore,
                                   personnel in each district’s injury compensation control
2
 Under United States Code Title 18 Sec. 1922, an officer or employee of the United States who is charged with
the responsibility for making reports and willfully fails, neglects, or refuses to make reports, or induces, compels,
or directs an injured employee to forego filing of any claim for compensation or other benefits, or willfully retains
any notice, report, claim, or paper which is required to be filed, shall be fined under this title or imprisoned not more
than one year, or both. (18 U.S.C. § 1922, 1999 ed.)



                                                           2
                                                Restricted Information
Allegation of the Untimely Submission                                                             HC-MA-00-002
 of Injury Claims, Albuquerque District


                                 office must finalize the processing of the injury claim and
                                 mail the injury claim to OWCP within the 14-calendar day
                                 timeframe.

                                 Postal Service Handbook, EL-505, entitled Injury
                                 Compensation, dated December 1995, Chapter 1, entitled,
                                 The USPS Injury Compensation Program, in the section
                                 entitled, Forms and Notices, states that supervisors should
                                 submit injury claims Forms CA-13 and CA-24 within 24 hours
                                 of receipt from employees. However, for our review, injury
                                 compensation personnel in the Albuquerque District’s Injury
                                 Compensation Control Office (the Control Office) and the
                                 audit staff agreed that supervisors should reasonably submit
                                 injury claims within 5-calendar days from the date received
                                 from the employee. Accordingly, for this review, we used
                                 5-calendar days as the maximum filing time needed and as
                                 reasonable criteria for measuring the timeliness of injury
                                 claim submissions by supervisors to the Control Office.

Objectives, Scope, 	             Our overall objective was to determine the validity of the
and Methodology	                 compliant submitted to the Office of the Inspector General
                                 Hotline. Specifically, we determined whether injury claims
                                 were processed and timely submitted to the Albuquerque
                                 District’s Injury Compensation Control Office in compliance
                                 with Postal Service guidance.

                                 To accomplish our objectives, we interviewed Postal
                                 Service and OWCP officials regarding the allegation and we
                                 reviewed injury claim records maintained in the
                                 Albuquerque District’s injury claim database. From our
                                 review of the Albuquerque District’s injury claim database,
                                 we determined that 246 out of 703, Forms CA-1 and CA-2
                                 were submitted later than 5-calendar days and we
                                 performed a 100 percent review of those identified claims.
                                 Furthermore, we reviewed the OWCP’s Time Lag reports5
                                 for fiscal year (FY) 1999 through the third accounting period
                                 of FY 2000 generated from the Postal Service Workers’
                                 Compensation Information and Reporting Systems to
                                 identify injury claims that were submitted late. Additionally,
3
  Injury Claim Form CA-1 entitled, Federal Employee’s Notice of Traumatic Injury and Claim for Continuation of
Pay/Compensation, notifies management of a traumatic injury and serves as the report to the OWCP, when needed.
4
  Injury Claim Form CA-2 entitled, Notice of Occupational Disease and Claim for Compensation, notifies management
of an occupational illness or disease and serves as the report to the OWCP, when needed.
5
  A management report generated from the Postal Service Workers’ Compensation Information and
Reporting Systems, using data provided by the OWCP, to track the timeliness of injury claim submissions.



                                                       3
                                            Restricted Information
Allegation of the Untimely Submission                                               HC-MA-00-002
 of Injury Claims, Albuquerque District


                                we reviewed the Human Resources Information Systems’
                                training database for the Albuquerque District. Specifically,
                                we reviewed the number of injury compensation training
                                courses conducted and attended by supervisors during
                                FY 1999.

                                This review was conducted from, October 29, 1999,
                                through, February 17, 2000, in accordance with the
                                President’s Council on Integrity and Efficiency, Quality
                                Standards for Inspections. We also discussed our
                                conclusions and observations with appropriate management
                                officials and included their comments, where appropriate.

Injury Claim                    Postal Service guidance states that supervisors should
Submissions by                  submit injury claims to the Postal Service’s injury
Supervisors                     compensation control offices within 24 hours of receipt from
                                injured employees. However, when measuring supervisory
                                performance using the 5-day submission criterion, we found
                                that supervisors in the Albuquerque District were submitting
                                injury claims late by an average of 21 days for the 246 injury
                                claims we reviewed. Late submissions occurred because
                                senior management in the Albuquerque District did not
                                enforce their internal policies and procedures requiring
                                supervisors to timely file injury claims.

                                In addition, senior management in the Albuquerque District
                                had not established a mechanism to hold supervisors
                                accountable for the late submission of injury claims.
                                Furthermore, Postal Service policy did not exist to require
                                supervisors, who are an integral part of the injury claim
                                process, to receive injury compensation training. Late
                                submissions of injury claims delayed injury compensation
                                control office personnel’s efforts to manage injury claims to
                                prevent or minimize lost workdays and to control medical
                                costs. In addition, the untimely submission of injury claims
                                by supervisors could represent actions subject to legal
                                remedies to include criminal penalties.

Timeliness of Injury	           During the period from FY 1999 through accounting period 3
Claim Submissions	              in FY 2000, we identified 246 out of 703 injury claims input
                                into the Albuquerque District’s time lag database that were
                                not submitted timely by supervisors using a greater than 5-
                                day criterion.




                                                     4
                                          Restricted Information
Allegation of the Untimely Submission                                                               HC-MA-00-002
 of Injury Claims, Albuquerque District



                                 The timeliness of injury claim submissions by supervisors
                                 who met the 5-day submission criterion6 (457 injury claim
                                 submissions) compared to those supervisors who did not
                                 (246 injury claim submissions) is depicted in the following
                                 analysis of injury claims chart.


                                                    AN AL Y S IS O F IN JU R Y C L AIM S
                                                       F Y 1999 to F Y 2000 ( AP 3 )

                                                                                     C A F o rm s
                                                                                     F ile d T im e ly
                                                                                     b y S u p e rvis o rs
                                                                                     (5 D a ys o r
                                                                                     L e ss ) 6 5 % -
                                            C A F o rm s
                                                                                     4 5 7 - In j u ry
                                            F ile d La te b y
                                                                                     C la im s
                                            S u p e rvis o rs
                                            ( M o re th an 5 D a ys )
                                            3 5 % - 24 6
                                            In j u ry C la im s                       7 0 3 T o ta l
                                                                                   In ju ry C la im s




                                 The time delay for the 246 late submissions ranged from
                                 6 to 719 days before the injury claims were submitted to the
                                 Control Office. The breakdown of the 246 late submissions
                                 was as follows:

                                       ! 107 injury claims were submitted in a range of 6 to 7
                                         days;

                                       ! 71 injury claims were submitted in a range of 8 to 14
                                         days;

                                       ! 44 injury claims were submitted in a range of 15 to
                                         29 days;

                                       ! 17 injury claims were submitted in a range of 30 to
                                         90 days; and

                                       ! 7 injury claims reflected late submissions of 108,
                                         166, 172, 213, 216, 341, and 719 days, respectively.
6
 To measure timeliness, the review team used a 5-calendar day submission requirement rather than a 24-hour
submission requirement, as the reasonable time supervisors should submit injury claims received from employees to
the Control Office. The Control Office needs to have processing time available to meet the overall 14-day rule
imposed by the OWCP.



                                                       5
                                            Restricted Information
Allegation of the Untimely Submission                                                                 HC-MA-00-002
 of Injury Claims, Albuquerque District



                                  We calculated that the 246 injury claims were submitted late
                                  an average of 21 days by supervisors in the Albuquerque
                                  District, which clearly exceeds the established 14-calendar
                                  day filing criterion, by the OWCP. Therefore, any injury
                                  claims submitted beyond 5 days by supervisors clearly
                                  reduces or prevents the Control Office personnel’s ability to
                                  meet the 14-calendar day rule imposed by the OWCP.

District Policies and             While, Postal Service guidance states that supervisors
Procedures Regarding              should submit injury claims within 24 hours, on
Injuries and Accidents            January 15, 1999, senior management in the Albuquerque
                                  District issued a policy memorandum7 that required all
                                  injuries to be immediately reported to the manager of the
                                  Control Office as soon as possible but no later than 2 hours
                                  after their occurrence or knowledge of their occurrence.
                                  The purpose of the policy memorandum was to assist
                                  supervisors in processing CA injury claim forms and to
                                  avoid lost workday injuries. The memorandum, signed by
                                  the Albuquerque District’s manager, Human Resources,
                                  also provided a pager number for the manager of the
                                  Control Office and telephone numbers of all Control Office
                                  personnel.

                                  The manager of the Control Office stated that the call-in
                                  responses as required by the policy memorandum were
                                  clearly deficient. After issuance of the January 15, 1999,
                                  policy memorandum, a report by accounting period8 was
                                  created that reported 59 out of the 246 late submitted injury
                                  claims we reviewed. The report showed that only 8 out of
                                  59 injury claims reported were preceded by a telephone call
                                  to the Control Office.

                                  A second policy memorandum9 dated October 26, 1999,
                                  jointly signed by the Albuquerque District’s acting district
                                  and senior plant managers required supervisory staff to
                                  immediately call the manager of the Control Office to report
                                  industrial accidents. However, from the date of the policy
                                  memo through December 15, 1999, the manager of the
                                  Control Office stated that although he could not quantify the
                                  number of telephone calls, the call-in response by

7
  See Appendix A for the full text of the January 15, 1999, policy memorandum.
8
  The first Time Lag for Injury Claims report was created during FY 1999 as of accounting period three.
9
  See Appendix B for the full text of the October 26, 1999, policy memorandum.



                                                         6
                                              Restricted Information
Allegation of the Untimely Submission                                                                HC-MA-00-002
 of Injury Claims, Albuquerque District


                                  supervisors as required by the policy memorandum was
                                  less than anticipated.

Mechanism for Holding             Although the Albuquerque District had in place policies
Supervisors                       requiring the early notification of accidents and injuries, we
Accountable for                   found no evidence that sufficient follow-up was made by
Processing Injury                 senior management to correct the deficiencies associated
Claim                             with the failure of supervisors to comply with district’s policy
                                  memorandums. In addition, no evidence of corrective
                                  actions was identified in the Albuquerque District to ensure
                                  that problems with late injury claim submissions by
                                  supervisors were corrected. Furthermore, senior
                                  management in the Albuquerque District had no mechanism
                                  to hold supervisors accountable for the late submission of
                                  injury claims.

                                  During an audit of the Capitol Metro Area, Northern Virginia
                                  District,10 we found that the Northern Virginia Customer
                                  Service District’s Safety and Health Services Office used a
                                  notification letter to inform managers and supervisors of
                                  accident reporting discrepancies. The letter stated in part
                                  that when managers and supervisors do not comply with
                                  established procedures, in order to reiterate accountability,
                                  unsatisfactory performance should be documented and
                                  appropriate corrective action should be taken. The Northern
                                  Virginia District’s notification letter was effectively used as a
                                  management tool to hold supervisors accountable for failure
                                  to perform their required duties.

Injury Compensation               During FY 1999, the manager of the Control Office
Training for                      attempted to conduct injury compensation training for all
Supervisors                       supervisors in the Albuquerque District. However, Postal
                                  Service policy does not provide the manager of the Control
                                  Office the authority to mandate supervisors to attend injury
                                  compensation training. The manager of the Control Office
                                  conducted a course entitled and numbered, Injury
                                  Compensation: The Supervisor's Role, Course # 21568-00
                                  during FY 1999. The training course was an eight-hour
                                  course with two hours focused on safety issues and six
                                  hours focused on training supervisors in the proper


10
 United States Postal Service, Office of the Inspector General, audit report entitled, Northern Virginia
District’s Process for Submitting, Controverting, and Challenging Injury Claims, dated September 29, 1999, (Audit
Report Number HC-AR-99-001).



                                                         7
                                              Restricted Information
Allegation of the Untimely Submission                                                    HC-MA-00-002
 of Injury Claims, Albuquerque District


                                procedures for managing and processing injury claims to
                                the Control Office.

                                During FY 1999, 126 out of 324 Albuquerque District
                                supervisors attended the injury compensation training
                                course. The percentage of supervisors trained compared to
                                the number of supervisors still in need of training is depicted
                                in the following injury compensation training for supervisors
                                chart.


                                              INJURY COMPENSATION TRAINING
                                                For Supervisors During FY 1999
                                             Supervisors
                                             Who Attended
                                             Injury
                                             Compensation
                                                                          Supervisors
                                             Training
                                                                          Who Need
                                             39%
                                                                          Injury
                                                                          Compensation
                                                                          Training
                                                                          61%



                                Our review identified 15 supervisors who after attending the
                                injury compensation training course were directly
                                responsible for two or more untimely injury claims
                                representing a total of 37 out of 246 late submissions to the
                                Control Office. In addition, we identified 26 supervisors who
                                did not attend the injury compensation training course and
                                who were directly responsible for two or more untimely
                                injury claims representing a total of 85 out of 246 late
                                submissions to the Control Office. This evidence suggests
                                that training is needed and that training should be repeated.

Postal Service                  Postal Service guidance in the EL-505, Chapter 1, states in
Guidance Requiring              part that “the Postal Service Headquarters’ manager of
Injury Compensation             Health and Resource Management identify training needs
Training for                    for those involved in administering the injury compensation
Supervisors                     program.” We noted, during our review, the critical role
                                supervisors execute in the injury claim process. However,
                                Postal Service policy did not require injury compensation
                                training for supervisors.




                                                     8
                                          Restricted Information
Allegation of the Untimely Submission                                                 HC-MA-00-002
 of Injury Claims, Albuquerque District



Suggestions                     We suggest the vice president, Western Area Operations,
                                prevent late submissions of injury claims by supervisors and
                                acting supervisors within the Albuquerque District, in-part,
                                by directing the acting district manager and senior plant
                                manager to:

                                    1.	 Issue a district-wide policy detailing supervisor and
                                        acting supervisor responsibilities for proper and
                                        timely processing injury claims to the Albuquerque
                                        District’s Injury Compensation Control Office.

                                    2. Develop a management tool to hold supervisors and
                                       acting supervisors accountable for not executing their
                                       injury reporting responsibilities. This management
                                       tool should include provisions to address supervisors’
                                       and acting supervisors’ unsatisfactory performance.
                                       In addition, the management tool should provide the
                                       manager, Human Resources, in the Albuquerque
                                       District with a written copy of the corrective action(s)
                                       taken in each instance to prevent future recurrences.

                                    3. Direct the manager, Injury Compensation Control
                                       Office, to conduct mandatory training during FY 2000
                                       of all Albuquerque District supervisors and acting
                                       supervisors who did not receive such training during
                                       FY 1999. In addition, conduct annual refresher
                                       training for supervisors and acting supervisors to
                                       re-emphasize the proper procedures for timely
                                       processing injury claims.

                                    4. Maintain training records to ensure that supervisors
                                       and acting supervisors attend required injury
                                       compensation training courses annually.

Management’s                    Management agreed with the report and each of the four
Comments                        suggestions and has taken or planned corrective actions.

Evaluation of                   Management comments were responsive and the actions
Management’s                    taken or planned were appropriate to the issues identified in
Comments                        this report.




                                                     9
                                          Restricted Information
Allegation of the Untimely Submission                                                        HC-MA-00-002
 of Injury Claims, Albuquerque District



Suggestion 	                    We also suggest the vice president, Employee Resource
                                Management:

                                    5. Direct the manager of Health and Resource
                                       Management11 to establish policy and procedures to
                                       mandate injury compensation training for all Postal
                                       Service supervisors, including annual refresher
                                       training.

Management’s                    Management agreed that injury compensation training for
Comments                        supervisors is desirable, but management did not agree that
                                such training should be mandatory. Management advised
                                us that the Postal Service only requires two mandatory
                                training classes, Ethics and Sexual Harassment.
                                Management is currently revising the training program for
                                injury compensation professionals and upon its completion
                                will initiate action to revise the supervisors’ portion of the
                                injury compensation training program. In the interim,
                                Management stated that it would encourage the injury
                                compensation control offices in the field to update and use
                                the existing supervisor’s training program until a new
                                program is available.

Evaluation of                   Management comments were responsive and the planned
Management’s                    actions should help to correct the training issue identified in
Comments                        this report.

                                We appreciate the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact me at (703) 248-2300.



                                Sylvia L. Owens
                                Assistant Inspector General
                                 for Revenue/Cost Containment

                                cc: Donna A. Galloway
                                    James R. Mercurio
                                    John R. Gunnels


11
 Formerly known as manager, Safety and Workplace Assistance and previously known as manager, Safety and
Risk Management.



                                                    10
                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District


                                            APPENDIX A.





                                                    11
                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District


                                            APPENDIX B.





                                                    12
                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




                                                    13

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




                                                    14

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District


                                            APPENDIX C.




                                                    15

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




                                                    16

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




                                                    17

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




                                                    18

                                          Restricted Information
Allegation of the Untimely Submission                              HC-MA-00-002
 of Injury Claims, Albuquerque District




 Major Contributors to
 The Report




                                                    19
                                          Restricted Information
